Clhrti Btsftrict Court of appeal
State of Florida
Opinion filed November 18, 2020. .
Not final until disposition of timely filed motion for rehearing.

No. 3D20-259
Lower Tribunal No. 19-7742

Elizabeth Maya,
Appellant,
vs.

Deutsche Bank National Trust Company, etc •»
Appellee.
An Appeal from the Circuit Court for Miami-Dade County, Reemberto Diaz,
Judge.
Elizabeth Maya, in proper person.
Lapin & Leichtling, LLP, and Benjamin B. Carter and Adam B. Leichtling,
for appellee.

Before SCALES, HENDON and MILLER, JJ.
PER CURIAM.
Affirmed. See Spikes v. OneWest Bank FSB. 106 So. 3d 475, 478-79 (Fla.
4th DC A 2012) (“A third party who advances the purchase price is entitled to an

equitable vendor’s lien. . . . Generally, when an equitable lien is imposed on a
homestead purchased with fraudulently obtained funds, the homestead exemption
from forced sale does not apply to either spouse, even if one spouse is innocent or
ignorant of wrongdoing.”).

2

r\

MANDATE
from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
THIRD DISTRICT
This cause having been brought to the Court by appeal, and after due
consideration the Court having issued its opinion;
YOU ARE HEREBY COMMANDED that such further proceedings be had in said
cause as may be in accordance with the opinion of this Court, and with the rules of
procedure and laws of the State of Florida.
WITNESS the Honorable Kevin Emas, Chief Judge of the District Court of Appeal
of the State of Florida, Third District, and seal of the said Court at Miami, Florida on this
day.
DATE:

December 04, 2020

CASE NO.:

20-0259

COUNTY OF ORIGIN:

Dade

T.C. CASE NO.:

19-7742

STYLE:

ELIZABETH MAYA,

v.

DEUTSCHE BANK NATIONAL TRUST
COMPANY, etc.,

A Tme^iyt' R vT
ATTEST
W'VV- :
.M
V

j-

VV~CU2J~-.

ORIGINAL TO:

Miami-Dade Clerk

cc: Adam B. Leichtling
la

Benjamin B. Carter

Elizabeth Maya

A
IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT, IN AND FOR MIAMI-DADE COUNTY,
FLORIDA
Case No.: 2019-007742-CA-01
Division: 30
DEUTSCHE BANK NATIONAL TURST COMPANY, AS
TRUSTEE, etc.,
Plaintiff,
vs.
ELIZABETH MAYA,
Defendant.
FINAL JUDGMENT
THIS CAUSE came before the Court on January 9, 2020, on Plaintiffs Motion for
Summary Judgment (the “Motion”). The Court, having heard the argument of counsel and/or the
parties, and based on the record, makes the following findings of fact:
Delia G. Barboza, a single woman, owned a parcel of real property located in
1.
Miami-Dade County, Florida, with the physical address of 13370 SW 91st Terrace, Unit D, Miami,
FL 33186 (the “Property”), more particularly described as:
Lot 4, in Block 34, of CALUSA POINT according to the Plat
thereof, as Recorded in Plat Book 116, Page 42, of the Public
Records of MIAMI-DADE County Florida.
Folio Number: 30-5902-018-2360
On or about March 28, 2006, Delia G. Barboza conveyed the Property to Arnold
2.
Maya, a single man, by the warranty deed recorded on April 5, 2006 in the Public Records of
Miami-Dade County, Florida, at Official Records Book 24396, Page 3295.
On or about March 28, 2006, Arnold Maya executed a Promissory Note (the
3.
“Note”) and Mortgage in the amount of $228,000.00 with Long Beach Mortgage Company for

1

Case No. 2019-007742-CA-01 (30)

purposes of purchasing the Property (the “Loan”). The Mortgage was recorded on April 5, 2006,
in the Public Records of Miami-Dade County, Florida, at Official Records Book 24396, Page 3296
(the “Mortgage”). Arnold Maya is the only signatory on the Note, and the Mortgage lists him as a
single man.
4.

Arnold Maya used the full amount of the Loan to purchase the Property.

5.
On or about February 16, 2007, Washington Mutual Bank, as successor in interest
to Long Beach Mortgage Company, assigned the Loan to Plaintiff. The Assignment was recorded
on March 25, 2007, in the Public Records of Miami-Dade County, Florida, at Official Records
Book 25478, Page 2482.
6.
On or about February 20, 2007, Plaintiff filed a complaint in this Court against,
among others, Arnold Maya, to foreclose the Note and Mortgage, styled Deutsche Bank National
Trust Company, as Trustee, etc. v. Arnold Maya, et al., case number 2007-4899-CA-01 (the
“Mortgage Foreclosure”).
7.
On January 29, 2008, this Court entered Final Judgment for Plaintiff in the
Mortgage Foreclosure (the “Mortgage Foreclosure Judgment”). The Mortgage Foreclosure
Judgment was recorded on February 8, 2008, in the Public Records of Miami-Dade County,
Florida, at Official Records Book 26207, Page 4186.
8.
On or about September 25,2015, Plaintiff purchased the property at the foreclosure
auction in the Mortgage Foreclosure.
9.
On or about October 26,2015, Defendant Elizabeth Maya filed an Objection to Sale
and Motion to Vacate Final Judgment in the Mortgage Foreclosure, asserting her homestead
interest in the Property as her marital home with Arnold Maya.
10.
On March 12, 2019, Plaintiff filed this action to impose and foreclose an equitable
lien against Defendant’s homestead interest.
11.
On May 28,2019, Defendant filed an Answer & Affirmative Defenses to Plaintiffs
Complaint, and a Counterclaim. Defendant’s Counterclaim was dismissed on August 8, 2019.
12.
On August 15, 2019, Defendant filed a Second Counterclaim. Plaintiff filed an
Answer to Defendant’s Second Counterclaim on September 9, 2019.
13.
Plaintiff has demonstrated that there are no genuine issues of material fact, and that
Plaintiff is entitled to judgment as a matter of law on its Complaint and on Defendant’s Second
Counterclaim.
14.
Plaintiff has factually disproven or demonstrated the legal insufficiency of each and
all of Defendant’s Affirmative Defenses.

2

Case No. 2019-007742-CA-01 (30)

A

A

Accordingly, it is hereby ORDERED AND ADJUDGED that:
1.

This Court has jurisdiction over the subject matter and the parties in this cause.

Plaintiffs Motion is GRANTED. Final Judgment is entered for Plaintiff on its
2.
Complaint and Defendant’s Second Counterclaim.
Plaintiff Deutsche Bank National Trust Company, as Trustee for the Long Beach
3.
Mortgage Loan Trust 2006-4 is entitled to impose and foreclose an Equitable Vendor’s Lien
against the Property in the amount used to purchase the Property. Spikes v. OneWest Bank FSB,
106 So. 3d 475, 478 (Fla. 4th DCA 2012); Palm Beach Sav. & Loan Ass ’n, FSA v. Fishbein, 619
So. 2d 267, 270-271 (Fla. 1993). Plaintiffs Equitable Vendor’s Lien consists of the following
amounts:
$227,005.18
Principal:
Prejudpment Interest from 1/29/08: $186.384.50 (6.89% per year)
$413,389.68
Total:
Which shall bear interest from this date forward at a rate of 6.89% per annum.
Plaintiff, whose address is c/o Select Portfolio Servicing, Inc., 3217 South Decker
4.
Lake Drive, Salt Lake City, Utah 84119, holds an equitable vendor’s lien for the total specified in
paragraph 4 superior to all claim or estate of Defendant Elizabeth Maya, on the following property
located in Miami-Dade County, Florida:
Lot 4, in Block 34, of CALUSA POINT according to the Plat
thereof, as Recorded in Plat Book 116, Page 42, of the Public
Records of MIAMI-DADE County Florida.
Address: 13370 SW 91st Terrace, Unit D, Miami, FL 33186
Folio Number: 30-5902-018-2360
If the sum total, with interest at the rate described in paragraph 4 and all costs
5.
accrued subsequent to this judgment are not paid, the Clerk of Court shall sell the property at public
, at 9:00 AM, to the highest bidder for cash, after first
\\
sale on
having given notice as required by Section 45.031, Florida Statutes. The Property shall be sold by
electronic sale at www.miamidade.realforeclose.com.
Plaintiff shall advance all subsequent costs of this action and shall be reimbursed
6.
for them by the clerk if the Plaintiff is not the purchaser of the Property, provided, however, that
the purchaser of the Property shall be responsible for the documentary stamps payable on the
certificate of title. If Plaintiff is the purchaser, the clerk shall credit Plaintiffs bid with the total
sum in paragraph 4, with interest and costs accruing subsequent to this judgment or such part of it
as is necessary to pay the bid in full.

3

Case No. 2019-007742-CA-01 (30)

IF THERE IS ADDITIONAL MONEY FROM THE FORECLOSURE SALE THAT
THE CLERK HAS IN THE REGISTRY OF THE COURT.
IF YOU DECIDE TO SELL YOUR HOME OR HIRE SOMEONE TO HELP YOU
CLAIM THE ADDITIONAL MONEY, YOU SHOULD READ VERY CAREFULLY
ALL PAPERS YOU ARE REQUIRED TO SIGN, ASK SOMEONE ELSE,
PREFERABLY AN ATTORNEY WHO IS NOT RELATED TO THE PERSON
OFFERING TO HELP YOU, TO MAKE SURE THAT YOU UNDERSTAND
WHAT YOU ARE SIGNING AND THAT YOU ARE NOT TRANSFERRING
YOUR PROPERTY OR THE EQUITY IN YOUR PROPERTY WITHOUT THE
PROPER INFORMATION. IF YOU CANNOT AFFORD TO PAY AN
ATTORNEY, YOU MAY CONTACT THE LEGAL AID SOCIETY AT THE DADE
COUNTY BAR ASSOCIATION, 123 N.W. FIRST AVENUE, SUITE 214, MIAMI,
FLORIDA, (TELEPHONE: (305) 579-5733), TO SEE IF YOU QUALIFY
FINANCIALLY FOR THEIR SERVICES. IF THEY CANNOT ASSIST YOU,
THEY MAY BE ABLE TO REFER YOU TO A LOCAL BAR REFERRAL
AGENCY OR SUGGEST OTHER OPTIONS. IF YOU CHOOSE TO CONTACT
THE DADE COUNTY BAR ASSOCIATION LEGAL AID SOCIETY, YOU
SHOULD DO SO AS SOON AS POSSIBLE AFTER RECEIPT OF THIS NOTICE.
DONE and ORDERED on this 9th day of January 2020.

j&M - 9 2020
Circuit Court Judge Reemberto D|p

D 1A2«

circuit Court Judge

Conformed copies to:
Benjamin B. Carter, Esq.
Lapin & Leichtling, LLP
BCarter@LL-lawfirm.com
eservice@LL-lawfirm.com
Counsel for Plaintiff
Elizabeth Maya
13370 SW 91st Terrace, Apt. D
Miami, FL 33186
amoldmaya@hotmail.com
Pro Se Defendant

5

Supreme Court of Jflortoa
MONDAY, JUNE 14, 2021
CASE NO.: SC20-1807
Lower Tribunal No(s).:
3D20-259;
132019CA007742000001
ELIZABETH MAYA
Petitioner(s)

vs.

DEUTSCHE BANK NATIONAL
TRUST COMPANY, ETC.
Respondent(s)

This cause having heretofore been submitted to the Court on
jurisdictional briefs and portions of the record deemed necessary to
reflect jurisdiction under Article V, Section 3(b), Florida
Constitution, and the Court having determined that it should
decline to accept jurisdiction, it is ordered that the petition for
review is denied.
No motion for rehearing will be entertained by the Court. See
Fla. R. App. P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, MUNIZ, and COURIEL, JJ., concur.
A True Copy
Test:

<22
John A. Tomasino
Clerk. Supreme Court

£
Supreme Court of Jfloritia
MONDAY, JUNE 14, 2021
CASE NO.: SC20-1807
Lower Tribunal No(s).:
3D20-259;
132019CA007742000001
ELIZABETH MAYA
Petitioner(s)

vs.

DEUTSCHE BANK NATIONAL
TRUST COMPANY, ETC.
Respondent(s)

This cause having heretofore been submitted to the Court on
jurisdictional briefs and portions of the record deemed necessary to
reflect jurisdiction under Article V, Section 3(b), Florida
Constitution, and the Court having determined that it should
decline to accept jurisdiction, it is ordered that the petition for
review is denied.
__J^ No motion for rehearing will be entertained by the Court. See
Fla. R. App. P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, MUNIZ, and COURIEL, JJ., concur.
A True Copy
Test:

<22
John A. Tomas ino
Clerk. Supreme Court

Supreme Court of Jflorfoa
FRIDAY, JUNE 25, 2021
CASE NO.: SC20-1807
Lower Tribunal No(s).:
3D20-259;
132019CA007742000001
ELIZABETH MAYA
Petitioner(s)

vs.

DEUTSCHE BANK NATIONAL
TRUST COMPANY, ETC.
Respondent(s)

Petitioner’s “Motion Request for Extention of Time to Answer
Decline to Accept Jurisdition” is hereby denied.
A True Copy
Test:

<22
John A. Tomasmo
Clerk, Supreme Court

ks

Served:
BENJAMIN B. CARTER
ADAM B. LEICHTLING
ELIZABETH MAYA

m

Ul Online

DE^ n

CONNECT
FXjORIDA departments
ECONOMIC OPPORTUNITY

Monday March 29 2021
Print Preview
English Espanol Krevol

ocn

rxci*\OA senutTHioav
ecOMOMtc Of'rwrruKiTY

Change PIN Logoff

Claimant information

Claimant
Home

Name: Maya, Arnold G.
Effective Date: 03/22/2020

Inbox
View and
Maintain
Account
Information

Claimant ID: 1750115
Benefit Year End: 09/04/2021

Claim ID: 2020-03
Claim Status: Active

Monetary Information
Weekly Benefit Amount:
Maximum Benefit Amount:

Determination,
Pending Issue
and Decision
Summary

$125
$9,875

Balance:
Earnings Disregard^

$3,500
$58.00

Monetary Status:
File Date:

Eligible Redetermined
05/08/2020

Requested Benefit Payment Information
Last Week Signed: 3/14/2021 - 3/20/2021
Last Week Paid: 3/14/2021 -3/20/2021

Explore
Available
Supports and
Services

Waiting Week:
Service Language: English

Current Program Type: Pandemic - COVID 19

IMPORTANT ITEMS THAT NEED YOUR IMMEDIATE ATTENTION - CLICK ON LINK TO VIEW ITEMS

My 1099-Gs
and 49Ts
FAQs
Workforce
Registration
Information

Messages »Notice of events, status changes, and other available actions
:
|

Initial Skills
Review
Read the
Benefit Rights
Information
Handbook

:
l
I

•

j You may log back in to CONNECT on 04/07/2021 to request benefit payment for your next available week(s)
| Your deadline to request those weeks is 04/29/2021.

.

\ A payment in the amount of $125 was issued to you on 3/29/2021.

.

; Your IRS Form 1099-G was sent to your mailing address on file. If you have not received the form: 1) Select
11099-Gs option to view and print a copy; or 2) Contact this office at 800-204-2418 to request an additional copy. ,
] To review your current mail or email address information, select 'View and Maintain", then "Contact Information".

Florida
Reemployment Assistance Home Page - Available Navigation Options
Reemployment
Assistance
Way2Go Debit Claimant Home
Inbox
Card Fee
Claimant Home
View
and/or complete outstanding Fact Finding, View
Schedule
Correspondence and all Determinations and Decisions. A
path to Appeal adverse Determinations or Decisions.
View and Maintain Account Information
View and/or maintain personal information, tax
withholding, prior payments, update payment method,
other claim information.

Determination. Pending Issue and Decision Summary
View Wage Determinations, Pending Issues Information,
Eligibility Determinations and Appeal Decisions.

Explore Available Supports and Services
Learn about assistance from other groups both within and
outside of Florida State Agencies.

Mv 1099-Gs and 49Ts
View and Print your 1099-Gs - Certain Government
Payments statement and 49Ts - Receipt Of Payment.

FAQs
Frequently Asked Questions about Reemployment
Assistance.

Workforce Registration Information
View your registration status and instructions to fully
register. Links to the Employ Florida Marketplace and to
find your local CareerSource.

Initial Skills Review

Read the Benefit Rights Information Handbook
You should understand your rights and responsibilities as
a Florida reemployment assistance claimant.

View the Initial Skills Assessment Review Training Material
and/or access and complete the assessment
Florida Reemployment Assistance Wav2Go Debit Card
Fee Schedule
Learn more about the Florida Reemployment Assistance
Way2Go Debit Card, potential fees and the mobile banking
options available.

i

ui oraine

OULOU.KJ*L l

CONNECT

Friday May 28 2021
Print Preview
English Espanol Krevol

FLORIDA DEPARTMENT <f
ECONOMIC OPPORTUNITY

Change PIN Logoff
Claimant informattor

Claimant
Home
Inbox

Name: Maya, Elizabeth B.
Effective Date: 03/22/2020

View and
Maintain
Account
Information

Monetary information
Weekly Benefit Amount:
Maximum Benefit Amount:

Determination,
Pending Issue
and Decision
Summary

Claimant ID: 5897093
Benefit Year End: 03/21/2021

$205
$8,200

Balance:
Eaminas Disregard®

$4,510
$58.00

Claim ID: 2020-01
Claim Status: Expired_Active

Monetary Status:
File Date:

Eligible Redetermined
03/31/2020

Requested Benefit Payment information
Last Week Signed:5/9/2021 - 5/15/2021
Last Week Paid: 5/9/2021 -5/15/2021

• Explore
Available
Supports and
Services

Waiting Week:
3/22/2020 - 3/28/2020
Service Language:
English

Current Program Type:Pandemic EUC

IMPORTANT ITEMS THAT NEED YOUR IMMEDIATE ATTENTION - CLICK ON LINK TO VIEW ITEMS

My 1099-Gs
and 49Ts
FAQs
Workforce
Registration
Information
Read the
Benefit Rights
Information
Handbook

Messages - Notice of events, status changes, and oftier svaffabSe actions
j
I

•

j You may log back in to CONNECT on 05/31/2021 to request benefit payment for your next available week(s). Your
| deadline to request those weeks is 06/17/2021.

Reemployment Assistance Home Page - Available Navigation Options

Florida
Claimant Home
Reemployment Claimant Home
Assistance
Way2Go Debit
Card Fee
Schedule
? View and Maintain Account Information
View and/or maintain personal information, tax withholding,
prior payments, update payment method, other claim
information.

Inbox
View and/or complete outstanding Fact Finding, View
Correspondence and all Determinations and Decisions. A
path to Appeal adverse Determinations or Decisions.
Determination. Pending Issue and Decision Summary
View Wage Determinations, Pending Issues Information,
Eligibility Determinations and Appeal Decisions.

Explore Available Supports and Services
Leam about assistance from other groups both within and
outside of Florida State Agencies.

Mv 1099-Gs and 49Ts
View and Print your 1099-Gs - Certain Government
Payments statement and 49Ts - Receipt Of Payment.

FAQs
Frequently Asked Questions about Reemployment
Assistance.

Workforce Registration Information
View your registration status and instructions to fully register.
Links to the Employ Florida Marketplace and to find your
local CareerSource.

Read the Benefit Rights Information Handbook
You should understand your rights and responsibilities as a
Florida reemployment assistance claimant.

Florida Reemployment Assistance Wav2Go Debit Card Fee
Schedule
Learn more about the Florida Reemployment Assistance
Way2Go Debit Card, potential fees and the mobile banking
options available.

Florida Reemployment Assistance Way2Go Debit Card Information
If you have elected to receive payments on a Florida Reemployment Assistance Way2Go Debit Card and have never
received a card before, or a previous card has expired, you will be mailed a new card with your first payment. If you had a
card issued within the last 3 years, it is still valid and will receive issued payments. If you need assistance with your Personal
Identification Number (PIN), or if your card has been lost or stolen, contact the debit card provider, Conduent immediately at
1-833-888-2780 or online at httDs://www.qoprogram.com/ooedcrecioient/#/
Translation Services Services de traduction Servicios de traduccion Servizi di traduzione Obersetzungsdienst TpaHcnarnOH CepBwuec Prevoditeljske usluge Sevis

!

/Weipt>N j—

tETfjirb B strict Court of Appeal
State of Florida
Opinion filed January 30, 2019.
Not final until disposition of timely filed motion for rehearing.

No. 3D18-914
Lower Tribunal No. 97-4899

Elizabeth Maya,
Appellant,
vs.

Deutsche Bank National Trust Company, etc.,
Appellee.

An Appeal from the Circuit Court for Miami-Dade County, Reemberto Diaz,
Judge.
Elizabeth Maya, in proper person.
Lapin & Leichtling, LLP, and Benjamin B. Carter, for appellee.

Before EMAS, C.J., and FERNANDEZ and SCALES, JJ.
EMAS, C.J.

Introduction
Elizabeth Maya appeals a final judgment entered against her in January 2018.
Because the trial court was without jurisdiction to enter the final judgment, we
reverse.
Facts and Procedural History
On March 28, 2006, Arnold Maya acquired his interest in the subject property
by warranty deed, and executed a promissory note in the amount of $228,000 secured
by a mortgage on the subject property. Arnold is the only borrower on the note and
both the mortgage and the deed describe Arnold as “a single man.”
In October 2006, Arnold defaulted on the loan and Deutsche Bank
commenced a foreclosure action, naming the unknown spouse of Arnold Maya as a
defendant. Service was returned with the comment: “defendant is not married.” As
a result, in January 2008, Deutsche Bank dropped the “unknown spouse of Arnold
Maya” as a party.
On January 30, 2008, the trial court entered final judgment of foreclosure.
Arnold appealed the judgment to this Court, but the appeal was dismissed when
Arnold failed to file an initial brief. See Maya v. Deutsche Bank Nat. Tr. Co.. 993
So. 2d 531 (Fla. 3d DCA 2008) (table). Arnold then filed several bankruptcy
petitions, further delaying the foreclosure sale.

2

Seven years later (August 2015), the trial court reset the foreclosure sale for
September 25, 2015. Deutsche Bank was the winning bidder and the clerk issued
the certificate of sale.
On October 2, 2015, Arnold filed an objection to sale and, on October 26, the
day before the hearing on Arnold’s objection, Elizabeth Maya (Arnold Maya’s
spouse) filed an objection to sale and motion to vacate the final judgment, certificate
of title and to reinstate the case for trial. She argued that she and Arnold had been
married since 1991, and that she has owned the property with her husband since its
purchase in 2006. Elizabeth argued that, because she was not named in the final
judgment, her homestead interest has not been extinguished and she has not been
given the opportunity to defend against the foreclosure.
The trial court entered an order on January 7,2016, stating: “[ujpon agreement
of the parties, the motion is withdrawn pending negotiation of a cash for keys
settlement.” Elizabeth’s objection and motion was never refiled, even after
negotiations between her and Deutsche Bank fell apart.
In July 2016, Deutsche Bank filed a motion for leave to file a supplemental
complaint to add Elizabeth Maya as a party. That motion was granted and the
supplemental complaint was filed. Deutsche Bank later amended the supplemental
complaint to assert a claim for an equitable vendor’s lien against Elizabeth Maya.

3

In January 2018, Deutsche Bank filed a motion for summary judgment upon
the amended supplemental complaint. The trial court granted the motion and entered
final judgment against Elizabeth Maya on the equitable vendor’s lien claim in the
amount of $356,185.41 (including prejudgment interest). This appeal follows.
Analysis
The question is whether, under these facts, the trial court retained jurisdiction,
following entry of the original final judgment (which became final on appeal in
2008), to permit Deutsche Bank in 2016 to file a supplemental complaint adding
Elizabeth Maya as a party to pursue an equitable vendor’s claim against her, and to
enter the subsequent 2018 final judgment on appeal. The answer to that question is
no, as the time period for altering, modifying or vacating the judgment had long
expired, and the 2008 final judgment did not retain jurisdiction to allow for a
supplemental, post-judgment complaint.1
This case is indistinguishable from our decision in Ross v. Wells Fargo
Bank, 114 So. 3d 256, 257 (Fla. 3d DCA 2013) where we held:

Compare the language from the original final judgment of foreclosure
( Jurisdiction of this action is retained to enter further orders as are proper including,
without limitation, writs of possession and deficiency judgments.”) with the final
judgment entered upon the supplemental complaint (“This Court shall retain
jurisdiction over this action to enter further orders that are proper, including, without
limitation, writs of possession, and re-foreclosure of any omitted necessary
parties”) (Emphasis added).
4

\
V .

I

t

’I*

Generally, a trial court.loses jurisdiction upon the rendition of a final
judgment and expiration of the'time allotted for altering, modifying or
vacating the judgment.' Patin v, Popino. 459 So.2d 435 (Fla. 3d DCA
■ 1984). The court retains'jurisdiction to the extent'such is specifically
reserved in the final judgment of to the extent provided by statute or
rule of procedure. Ross v. Damas. 31 So.3d 201 (Fla. 3d DCA
’ 2010); Harrell v.-Harrell. 515 So.2d 1302 (Fla. 3d DCA 1987). In the
instant case, the trial court^ entered a final judgment of foreclosure
against Tarazi on July 8, 2008. That final judgment contained; only a ’
r »
general reservation , of jurisdiction.^ ‘The Court retains-jurisdiction of
-this action,to. enterjfiirtherj Orders that are proper including, without
limitation, writs of possession and deficiency judgments.’ The final
\:
judgment1 did not retain jurisdiction to; allow for ‘ a ^supplemental
’' complaint to add an'omitted party post-judgmcht.1 In permitting’such a ?
supplemental post-judgment proceeding, the trial court acted in the
absence of jurisdiction,,
. 5 . 'j\

■’

‘

*4

'See also Garcia v. Christiana Tr.. 230 So. 3d 66, 69 (Fla. 3d DCA 2017)
(“[T]he general reservation of'jurisdiction does not allow for a supplemental
complaint or to add an omitted party post-judgment.”); Singer v>Singer. 219 So. 3d
-

‘

••

•

*

»

t

944 (Fla. 4th DCA 2017) (holding that the final order “did not contain a specific
reservation of the court's jurisdiction to permit a supplemental complaint post
►

-

V

*

judgment'to add a third party. ”)
We therefore reverse and remand with directions to vacate the final judgment
on appeal and reinstate the 2008 final judgment.2
\
it

‘jr f

i

r- -• ■* t.

2 As we indicated in Ross, our decision here is without prejudice to Deutsche Bank
“filing a separate foreclosure action against the previously-omitted defendant ” Id
at 257 n.3.
5

